Robert Lee Stabnow. Petitioner, v. DHS Commissioner's Office, Respondent.
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF MINNESOTA
2019 U.S. Dist. LEXIS 176886
Civ. No. 19-1539 (PAM/TNL)
October 11, 2019, Decided
October 11, 2019, Filed
Editorial Information: Subsequent History
As Amended October 11,2019.
Counsel

{2019 U.S. Dist. LEXIS 1}Robert Lee Stabnow, Plaintiff, Pro se, Moose
Lake, MN.

For DHS Commissioner's Office, Respondent: Leonard J
Schweich, Matthew Frank, LEAD ATTORNEYS, Minnesota Attorney General's Office, St.
Paul, MN.
Judges: Paul A. Magnuson, United States District Judge.
Opinion
Opinion by:

Paul A. Magnuson
Opinion

AMENDED MEMORANDUM AND ORDER
This matter is before the Court on the Report and Recommendation ("R&R") of Magistrate Judge
Tony N. Leung dated September 23, 2019. In the R&R, Magistrate Judge Leung recommends denying
Petitioner's Motion for Summary Judgment, and dismissing the Petition and Amended Petition without
prejudice as to one claim and with prejudice as to another. Petitioner filed timely objections to the
R&R.
This Court must review de novo any portion of an R&R to which specific objections are made. 28
U.S.C. § 636(b)(1); D. Minn. L.R. 72.2(b). After conducting the required review and for the following
reasons, the Court ADOPTS the R&R. (Docket No. 19.)
BACKGROUND
Petitioner Robert Lee Stabnow is currently committed to the Minnesota Sex Offender Program
("MSOP"). As recounted in the R&R, he has challenged his commitment several times in state court.
(R&R at 2.) The instant federal Petition seeks a declaratory judgment vacating his commitment for
violations of his constitutional{2019 U.S. Dist. LEXIS 2} rights.
DISCUSSION
The R&R concluded that, to the extent Stabnow challenges his initial commitment order, that
challenge is time-barred. (R&R at 4.) To the extent Stabnow challenges the state court's most recent
decision regarding his commitment, the R&R recommended dismissal of that challenge without
prejudice for failure to exhaust remedies. (Id. at 9.) Stabnow's objections make clear that he does not
challenge his initial commitment proceeding, but rather he believes the laws governing his

lyhcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

commitment are unconstitutional both facially and as applied to him. (Obj. (Docket No. 20) atfl 7.j;
D.15.)
Underlying Stabnow's claims is his belief that he cannot receive a fair hearing regarding his
commitment in state court because state judges are elected and thus are politically motivated to be
biased against MSOP detainees. (Id. H 7.a.) This bias allegedly extends to the legislative and
executive branches of state government, which prevents Stabnow "from receiving a fair and unbiased
review of his commitment under the discharge process outlined in [Minnesota] law." (Id 7.e.) Thus,
he argues that the Court should not require him to exhaust his state-court remedies.
To the extent Stabnow contends that the{2019 U.S. Dist. LEXIS 3} Minnesota civil commitment
statute is unconstitutional, either as applied to him or on its face, the Eighth Circuit has ruled
otherwise, and this Court is bound by that ruling. Karsiens v. Piper. 845 F.3d 394, 410-11 (8th Cir.
2017). Further, the Court agrees with Magistrate Judge Leung that a challenge to the fairness of the
state judiciary as a whole, especially one that relies solely on innuendo and supposition, is not well
taken. The Court will not presume that Minnesota state judges are anything less than fair and
unbiased, as their judicial oath requires. Thus, the R&R's conclusion that Stabnow must bring his
claims to the state courts in the first instance is correct.
Stabnow also contends that commitment to MSOP is punishment in violation of his double-jeopardy
rights, and moreover is cruel and unusual punishment in violation of the Eighth Amendment. (Obj. U
7.d.) He describes the alleged unfair treatment that underlies his contentions, but it appears that this
treatment is the subject of a separate lawsuit and is included only to illustrate what Stabnow contends
are unconstitutional conditions at MSOP. (See Docket No. 17 19.) But even taken as true, the
treatment Stabnow describes does not rise to the level of an Eighth Amendment violation. See
Wilson v. Seiter. 501 U.S. 294, 298, 111 S. Ct. 2321, 115 L. Ed. 2d 271 (1991) ("[0]nly those{2019
U.S. Dist. LEXIS 4} deprivations denying 'the minimal civilized measure of life's necessities,' are
sufficiently grave to form the basis of an Eighth Amendment violation.") (quoting Rhodes v. Chapman.
452 U.S. 337, 347, 101 S. Ct. 2392, 69 L. Ed. 2d 59 (1981)). Whether the conditions violate the
Minnesota constitution is a matter for the state courts to determine, and this challenge, too, must be
first presented to the state courts before Stabnow can seek federal relief.
Finally, Stabnow has not established that he is entitled to a certificate of appealability on his claims.
Stabnow has not "made a substantial showing of the denial of a constitutional right." 28 U.S.C. §
2253(c)(2). Thus, no certificate of appealability will issue.

r.

CONCLUSION
Stabnow is required to present his claims to the state courts in the first instance. Accordingly, IT IS
HEREBY ORDERED that:
1. The Petition (Docket No. 1) and amended Petition (Docket No. 8) are DENIED and
DISMISSED WITHOUT PREJUDICE;
2. Petitioner's Motion for Summary Judgment (Docket No. 14) is DENIED; and
3. A certificate of appealability will not issue.

LET JUDGMENT BE ENTERED ACCORDINGLY.
/s/Paul A. Magnuson
Paul A. Magnuson
United States District Court Judge

1yhcases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

Dated: October 11,2019

\

lyhcases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 1 of 12

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

Case No. 19-cv-1539 (PAM/TNL)

Robert Lee Stabnow,
Petitioner,

REPORT &
RECOMMENDATION

v.
DHS Commissioner’s Office,
Respondent.

Robert Lee Stabnow, 1111 Highway 73, Moose Law, MN 55767 (pro se Petitioner); and
Leonard J. Schweich and Matthew Frank, Assistant Attorneys General, Minnesota
Attorney General’s Office, 445 Minnesota Street, St. Paul, MN 55101 (for Respondent).

This matter comes before the Court on Petitioner Robert Lee Stabnow’s Petitions
under 28 U.S.C. § 2254 for a Writ of Habeas Corpus by a Person in State Custody (ECF
Nos. 1 & 8) and his motion for summary judgment (ECF No. 14). This matter has been
referred to the undersigned for a Report and Recommendation to the Honorable Paul A.
Magnuson, District Judge for the United States District Court for the District of Minnesota,
pursuant to 28 U.S.C. § 636 and D. Minn. LR 72.1. For the reasons that follow, the Court
recommends that the Petition and motion for summary judgment be denied.

I. BACKGROUND
Petitioner Robert Lee Stabnow has been civilly committed as Sexually Dangerous
Person at the Minnesota Sex Offender Program (“MSOP”) since August 31, 2007. (ECF
No. 13-2, p. 134). Petitioner did not directly appeal the order committing him, but has since
1

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 2 of 12

challenged his commitment unsuccessfully in several ways. In 2013, he filed a petition for
a writ of habeas corpus in Minnesota state court. (ECF No. 13-1, p. 413; ECF No. 13-2, p.
198). Petitioner did not appeal the order denying him habeas relief. Two years later,
Petitioner filed a motion for relief under Minnesota Rule of Civil Procedure 60.02. (ECF
No. 13-1, p. 220; ECF No. 13-1, p. 405). Petitioner did appeal from the decision denying
him relief under Rule 60.02. The Minnesota Court of Appeals affirmed and the Minnesota
Supreme Court denied review. (ECF No. 13-1, p. 37-41). Petitioner has also twice
petitioned the Special Review Panel and Judicial Appeal Panel for transfer, provisional
discharge, or discharge. (ECF No. 13-1, pp. 3-5, 9-22). Both petitions were denied, with
the most recent decision being entered on September 17, 2018. (Id.). Petitioner did not
appeal the denial of either petition to Minnesota’s appellate courts.
On June 11, 2019, Petitioner filed a petition for habeas corpus relief pursuant to 28
U.S.C. § 2254. (ECF No. 1). He contends that his “commitment is for an undetermined
time” and that, among other things, it violates his rights under the First, Fifth, Sixth, Eighth,
and Fourteenth Amendments. (ECF No. 1, pp. 1, 9). Petitioner seeks “declaratory and
injunctive relief,” including an order vacating his commitment.
On July 30, 2019, Petitioner filed an amended petition, so that he could change the
name of the responding party and add certain exhibits in support of his claim. (ECF No.
8). Respondent answered the Petition on August 29, 2019. Petitioner filed a reply brief,
along with a motion for summary judgment, on September 9, 2019. The Court then took
the matter under advisement.

2

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 3 of 12

II. ANALYSIS
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) governs
review of habeas corpus petitions filed by persons civilly committed under state law.
Persons civilly committed under state law may seek relief on the grounds that they are “in
custody in violation of the Constitution or laws or treaties of the United States.” 28 U.S.C.
§ 2254(a). Relief may be granted under Section 2254 only if the petitioner can establish
that a state court proceeding “(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States;” or “(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.”
Id. § 2254(d).
A person seeking relief under Section 2254 must file his or her application within a
“1-year period of limitation.” 28 U.S.C. § 2244(d)(1). The one-year period runs from the
latest of: (1) the date that direct appeal is concluded or the expiration of the time for seeking
such review; (2) the date on which the impediment to applying for habeas relief is removed;
(3) the date on which the constitutional right was initially recognized; or (4) the date on
which the claims could have been discovered through the reasonable exercise of due
diligence. 28 U.S.C. § 2244(d)(l)(A)-(D). Time during which a properly-filed state
postconviction petition or similar motion is pending does not count toward the one-year
period of limitation. 28 U.S.C. § 2244(d)(2). But the fact that a person files a postconviction
petition or similar motion does not reset the one-year period of limitation. Johnson v.
Mooney, No. 05-cv-1030,2006 WL 1284076, at *4 n. 4 (D. Minn. May 10,2006). It merely
3

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 4 of 12

pauses the clock on the limitations period until that petition or motion is resolved. Id. A
late-filed postconviction petition or other similar motion “cannot revive a time period that
has already expired.” Id. (citation omitted).
A. Claims Related to the Commitment Order are Time-Barred
It is not clear what state court proceeding Petitioner is claiming resulted in a decision
that was contrary to or resulted in an unreasonable application of federal law. 28 U.S.C.
§ 2254(a). On the very first page of his Amended Petition, he indicates that he seeks relief
from the August 31, 2007 decision ordering that he be civilly committed. To the extent
Petitioner seeks relief from that order, the Court must recommend the Amended Petition
be denied with prejudice. The time to appeal that order expired on October 30, 2008. See
Minn. R. Civ. App. P. 104.01, subd. 1 (providing 60 days to appeal district court judgment).
Petitioner, however, did not seek habeas relief until July 2019, nearly 11 years after the
one-year statute of limitations expired. Any claim related to the August 31, 2007 decision
is therefore time-barred.
Petitioner has not identified any impediment that prevented him from challenging
that order in a timely fashion. Nor has he claimed that his petition relates to constitutional
rights that were recognized by the United States Supreme Court only after he was civilly
committed. The fact that beginning in 2013, Petitioner began to seek relief from the Judicial
Appeal Panel and through other state court proceedings does not restart the one-year
limitations period for claims related to the initial commitment order. See Johnson, 2006
WL 1284076, at *4 n. 4. Accordingly, the Court recommends that the Amended Petition

4

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 5 of 12

be denied and dismissed with prejudice to the extent that Petitioner seeks relief from the
August 31, 2007 order.
B. Claims Related to the 2018 Judicial Appeal Panel Order are Unexhausted
Petitioner also notes that he filed his Petition (and Amended Petition) within one
yearofthe Judicial Appeal Panel’s 2018 decision denying him relief.1 (ECFNo. 15, p. 10).
Therefore, out of an abundance of caution, the Court will construe the Amended Petition
as also arguing that the 2018 Judicial Appeal Panel proceedings led to a decision that was
contrary to or an unreasonable application of clearly established federal law. Because
Petitioner filed the Amended Petition within one year of that decision, claims related to
that decision are not time barred.
But in order to seek habeas relief in federal court, however, Petitioner must first
“exhaust his remedies in state court. In other words, [he] must give the state courts an
opportunity to act on his claims before he presents those claims to a federal court in a
habeas petition.” O’Sullivan v. Boerckel, 526 U.S. 838, 842 (1999); see 28 U.S.C.
§ 2254(b)(1). “To provide the State with the necessary ‘opportunity,’ [he] must ‘fairly
present’ his claim in each appropriate state court (including a state supreme court with
powers of discretionary review), thereby alerting that court to the federal nature of the
claim.” Baldwin v. Reese, 541 U.S. 27, 29 (2004) (citation omitted). Here, Petitioner did
not appeal the Judicial Appeal Panel’s 2018 decision to the Minnesota appellate courts.
Accordingly, Petitioner’s claims are unexhausted.

1 Though the Judicial Appeal Panel decision is part of the record (ECF No. 13-1, pp. 3-5), it does not appear that the
recommendation of the Special Review Board is included.

5

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 6 of 12

C. Claims Related to the 2018 Judicial Appeal Panel Order are not
Procedurally Defaulted
Because Petitioner’s claims are unexhausted, the Court must then determine
“whether a state court would accord the petitioner a hearing on the merits.” McCall v.
Benson, 114 F.3d 754, 757 (8th Cir. 1997) (citing Harris v. Reed, 489 U.S. 255, 268-70
(1989) (O’Connor, J., concurring)). If a state procedural rule would “independently and
adequately” bar direct review of the claim, then the claim is procedurally defaulted.
Clemons v. Lubbers, 381 F.3d 744, 750 (8th Cir. 2004) (citing Coleman v. Thompson, 501
U.S. 722, 750 (1991)). A federal court may enforce a state procedural bar only if it is clear
that the state court would hold the claim procedurally barred. Clemons, 381 F.3d at 750.
Were Petitioner seeking relief from a Minnesota criminal proceeding, the procedural
default analysis would be relatively simple. A Minnesota state prisoner seeking to attack
his or her conviction must either file a direct appeal to the Minnesota Court of Appeals or
Minnesota Supreme Court or file a postconviction petition. See State v. Knaffla, 243
N.W.2d 737, 741 (Minn. 1976). Minnesota law provides that once a prisoner has directly
appealed his or her sentence, “all matters raised therein, and all claims known but not
raised, will not be considered upon a subsequent petition for postconviction relief.” Id.; see
also McCall, 114 F.3d at 757. Thus, if Petitioner were challenging a state criminal
proceeding, the Court’s procedural default analysis would be informed by Knaffla and its
progeny.
But the 2018 Judicial Appeal Panel proceedings relevant to this Petition were not
criminal proceedings. They were a civil matter that resulted in Petitioner’s continued civil
6

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 7 of 12

commitment as a Sexually Dangerous Person. There are multiple ways that a person may
challenge his or her continued civil commitment in Minnesota. The Court must consider
whether any of those proceedings would allow Petitioner a hearing on the merits of his
claims. If so, Petitioner’s claims related to the Judicial Appeal Panel’s 2018 Decision
would not be procedurally defaulted.
1. Petitioner May Obtain Review of his Claims by Filing a Petition
under the Minnesota Commitment and Treatment Act
The most common way a patient can challenge his or her continued civil
commitment is by filing a petition for transfer, discharge, or provisional discharge under
the Minnesota Commitment and Treatment Act: Sexually Dangerous Persons and Sexual
Psychopathic Personalities (“MCTA”). See Minn. Stat. § 253D.01, et seq. The MCTA
authorizes provisional discharge when “the committed person is capable of making an
acceptable adjustment to open society,” based on the person’s course of treatment, present
mental status, and conditions of the provisional discharge plan. Minn. Stat. § 253D.30,
subd. 1(b). It permits full discharge when it is determined that “that the committed person
is capable of making an acceptable adjustment to open society, is no longer dangerous to
the public, and is no longer in need of treatment and supervision.” Minn. Stat. § 253.D.31.
And it allows the transfer of a patient when “appropriate,” based on several factors. Minn.
Stat. § 253D.29, subd. 1.
It is not clear whether a MSOP patient can bring constitutional claims in a MCTA
proceeding. Nothing in the statutory text of the MCTA specifically allows the discharge of
an individual based on the fact that his or her continued detention violates her constitutional
7

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 8 of 12

rights. But the Minnesota appellate courts have explained that any claim for discharge or
transfer must be brought through a MCTA petition, regardless of the type of claim brought.
See In re Civil Commitment ofLonergan, 811 N.W.2d 635, 642 (Minn. 2012) (holding that
because the MCTA does not provide procedures for claims that “do not specifically request
transfer or discharge,” those claims may be raised in a different forum); In re Civil
Commitment ofMoen, 837 N.W.2d 40, 47 (Minn. App. 2013) (interpreting phrase “do not
specifically request transfer or discharge” to encompass only those claims that “seek a
specific form of relief other than transfer or discharge”), rev. denied (Minn. Oct. 15, 2013).
In this case, because Petitioner seeks “discharge” from MSOP on a variety of
grounds, the MCTA provides him an avenue from which to seek state review of his claims
constitutional or otherwise. The fact that Petitioner previously filed a petition under the
MCTA does not preclude him from filing a successive petition. Minn. Stat. § 253D.27,
subd. 2 (permitting patients to petition the Judicial Appeal Panel every six months).2 As a
result, Petitioner’s claims are not procedurally defaulted.
2. Petitioner May Also Obtain Review of his Claims by Filing a State
Habeas Petition
Civilly committed persons may also challenge the legality of their commitment by
filing a state habeas petition. Joelson v. O’Keefe, 594 N.W.2d 905, 908 (Minn. App.
1999), rev. denied (Minn. July 28, 1999); see also Moen, 837 N.W.2d at 47-48. Though a
state habeas petitioner may raise only constitutional or jurisdictional challenges to the
legality of his or her commitment, Larson v. Jesson, No. A10-2214, 2011 WL 2623446, at
2 In fact, Petitioner has already filed a new petition under the MCTA. (ECF No. 15, p. 7 n. 3). He will be able to appeal
any decision resulting from that petition to the Minnesota state appellate courts.

8

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 9 of 12

*2 (Minn. App. July 5, 2011), it is not clear that those limitations would bar review of the
claims that Petitioner raised before the Judicial Appeal Panel in 2018. See Clemons, 381
F.3d at 750 (prohibiting a federal court from enforcing a state procedural bar unless clear
the state court would do the same). For this reason as well, claims related to the 2018
Judicial Appeal Panel Proceedings are not procedurally defaulted.
D. Because Claims Related to the 2018 Judicial Appeal Panel Proceedings are
not Procedurally Defaulted, the Court will Recommend Those Claims be
Dismissed Without Prejudice
“When a state court remedy is available for-a [petitioner’s] unexhausted claim, the
federal habeas court must defer action until the claim is exhausted, either by dismissing the
federal petition without prejudice or by using the ‘stay and abeyance” procedure’ described
by the United States Supreme Court in Rhines v. Weber[.\ Armstrong v. Iowa, 418 F.3d
924, 926 (8th Cir. 2005). Stay and abeyance, however, “is only appropriate when the
district court determines there was good cause for the petitioner’s failure to exhaust his
claims first in state court.” Rhines, 544 U.S. 269, 277 (2005). No good cause exists here.
Petitioner admits that he has simply given up litigating his claims in state court.
Accordingly, the Court recommends the unexhausted claims be dismissed without
prejudice.
Petitioner also suggests this Court excuse the exhaustion requirement, arguing that
it is not possible for him to receive a fair hearing on his claims through state proceedings.
This Court declines to recommend this. Petitioner’s argument is based on a series of
conclusory allegations. He has provided no reason for the Court to conclude he would be
subject to an unfair proceeding at the state level. The fact that Petitioner is frustrated with
9

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 10 of 12

decisions reached in the state courts is no reason for this Court to recommend the
exhaustion requirement be waived.
E. No Certificate of Appealability Should Issue
Pursuant to Rule 11 of the Rules Governing § 2254 Cases in the United States
District Courts, the Court “must issue or deny a certificate of appealability when it enters
a final order adverse to the applicant.” A certificate of appeal may issue only upon a
showing that the issues raised by the Petitioner satisfy the standard set forth in 28 U.S.C. §
2253(c)(2). Rule 11(a), Rules Governing § 2254 Cases in the United States District Courts.
Under that statute, federal district courts may not grant a certificate of appealability unless
the petitioner “has made a substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). To meet this standard, the petitioner must show “that the issues are
debatable among reasonable jurists, a court could resolve the issues differently, or the
issues deserve further proceedings.” Flieger v. Delo, 16 F.3d 878, 882-83 (8th Cir. 1994).
For purposes of appeal under 28 U.S.C. § 2253, this Court concludes that it is unlikely that
reasonable jurists would find the question of whether to dismiss the petition debatable, or
that some other court would decide this petition differently. Further, the issues raised by
Petitioner are not unique and do not otherwise call for further proceedings. This Court
therefore recommends that a certificate of appealability not issue.
F. Summary Judgement Should be Denied
Finally, Petitioner has moved for summary judgment in this matter. Motions
for summary judgment are not proper in habeas cases. Jones v. Wilson, No. 14-cv-3246,
2015 WL 4727285, at *2 (D. Minn. Aug. 7, 2015). Furthermore, in light of the Court’s
10

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 11 of 12

analysis above, it is apparent that Petitioner is not entitled to habeas relief. As a result, the
Court recommends the summary judgment motion be denied.
III. RECOMMENDATION
Based on the foregoing, and all of the files, records, and proceedings herein, IT IS
HEREBY RECOMMENDED that:
1. To the extent Petitioner is challenging the August 31, 2007 decision ordering him
committed (ECF No. 13-2, pp. 94-134), the Petition under 28 U.S.C. § 2254 for a
Writ of Habeas Corpus by a Person in State Custody (ECF No. 1) and amended
Petition under 28 U.S.C. § 2254 for a Writ of Habeas Corpus by a Person in State
Custody (ECF No. 8) be DENIED and DISMISSED WITH PREJUDICE; and
2. To the extent Petitioner is challenging the 2018 decision of the Judicial Appeal
Panel (ECF No. 13-1, pp. 4-5), the Petition under 28 U.S.C. § 2254 for a Writ of
Habeas Corpus by a Person in State Custody (ECF No. 1) and amended Petition
under 28 U.S.C. § 2254 for a Writ of Habeas Corpus by a Person in State Custody
(ECF No. 8) be DENIED and DISMISSED WITHOUT PREJUDICE;
3. Petitioner’s Motion for Summary Judgment in Petition for Writ of Habeas Corpus
(ECF No. 14) be DENIED; and
4. A certificate of appealability not issue.

Date: September 23, 2019

_____ s/ Tony N. Leung_____
Tony N. Leung
United States Magistrate Judge
for the District of Minnesota
Stabnow v. DHS Commissioner’s Office
Case No. 19-cv-1539 (PAM/TNL)

NOTICE
Filings Objections: This Report and Recommendation is not an order or judgment of the
District Court and is therefore not appealable directly to the Eighth Circuit Court of
Appeals.
11

CASE 0:19-cv-01539-PAM-TNL Document 19 Filed 09/23/19 Page 12 of 12

Under Local Rule 72.2(b)(1), “a party may file and serve specific written objections to a
magistrate judge’s proposed finding and recommendations within 14 days after being
served a copy” of the Report and Recommendation. A party may respond to those
objections within 14 days after being served a copy of the objections. LR 72.2(b)(2). All
objections and responses must comply with the word or line limits set forth in LR 72.2(c).

12

Ci

t

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-3453

Robert Lee Stabnow
Plaintiff - Appellant
v.

DHS Commissioner's Office
Defendant - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:19-cv-01539-PAM)
JUDGMENT

Before LOKEN, BENTON, and KELLY, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
February 27, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

COURT OF APPEALS
IN THE
UNITED STATES SUPREME COURT
Robert L. Stabnow,

vs.

Plaintiff Court File No. 19-cv-01539-PAM-TNL
Appeal File No. 19-3453
Supreme Court File:_______________

Jodi Harpstead,
Respondent

CERTIFICATE OF SERVICE

The undersigned hereby certifies that he served to the State of Minnesota a copy of
Plaintiff’s Petition for Certiorari to the U.S. Supreme Court and Notice of
Appeal of Order Denying Certificate of Appealability and Dismissal of Appeal
for writ of Habeas Corpus Review (previously served), Corrected Motion to
Proceed IN FORMA PAUPERIS, Letter to the Court and this Certificate Of
Service By Mail pursuant to Fed. R.C.P. Rule 5. (a) (1)(E), by placing them into
an unsealed envelope, postage prepaid addressed as follows:
Leonard J. Schweich
Assistant Attorney General
445 Minnesota Street, Suite 1100
Saint Paul, Minnesota 55101-2128
the last known address of said party by depositing same into a locked box
designated for the United States Postal Service inside the Minnesota Sex Offender
Program, Moose Lake, Minnesota on July 9, 2020.
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct. Title 28 U.S.C. § 1746.
Dated: July 9, 2020

Robert L. StHbiTow a
Appearing Pro se
1111 Highway 73
Moose Lake, MN 5767

